IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-659
LARRY THOMPSON, PETITIONER
v.
PAGIEL CLARK, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________
Pursuant to Rules 28.4 and 28.7 of this Court, the Acting
Solicitor General, on behalf of the United States, respectfully
moves that the United States be granted leave to participate in
the

oral

argument

in

this

case

as

amicus

curiae

supporting

petitioner and that the United States be allowed ten minutes
of argument time.

Petitioner has agreed to cede ten minutes

of argument time to the United States and therefore consents to
this motion.
The question presented in this case concerns the requirements
to establish a claim under 42 U.S.C. 1983 against local lawenforcement officers based on an alleged unreasonable seizure
pursuant to legal process in violation of the Fourth Amendment.
The court of appeals held that to establish such a claim, the
plaintiff must prove, inter alia, that the underlying criminal

2
proceeding initiated by the legal process has terminated in a
manner that affirmatively indicates the Section 1983 plaintiff’s
innocence.

Pet. App. 3a-7a.

as

curiae

amicus

Section

1983

The United States has filed a brief

supporting

plaintiff

petitioner,

should

be

contending

required

to

show

that

the

that

the

underlying criminal proceeding has terminated in his favor, but
not that it has terminated in a way that affirmatively indicates
his innocence.
The United States has a substantial interest in the issues
presented in this case. The United States is committed to ensuring
that

constitutional

government

rights

prosecutes

are

carefully

individuals

--

safeguarded.

mostly

state

and

The
local

law-enforcement officers -- who willfully violate individuals’
rights under color of law, in violation of 18 U.S.C. 241 and 242.
And the government brings civil actions against state and local
law-enforcement agencies under 34 U.S.C. 12601, which authorizes
the Attorney General to seek appropriate relief to remedy a pattern
or

practice

of

law-enforcement

officers’

violations

of

constitutional rights.
In addition, this Court has often invoked its Section 1983
jurisprudence in cases involving implied causes of action against
federal officers for the deprivation of constitutional rights
under Bivens v. Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388 (1971).

See, e.g., Hartman v. Moore,

3
547 U.S. 250 (2006). The United States therefore has a substantial
interest in the circumstances in which federal officers may be
held liable for damages in civil actions for alleged violations of
constitutional rights, to the extent that such a claim (including
one like petitioner’s) remains viable after Ziglar v. Abbasi,
137 S. Ct. 1843 (2017).
The government has previously presented oral argument as
amicus curiae in cases concerning the contours of constitutional
tort claims under Section 1983 and related questions.

See, e.g.,

McDonough v. Smith, 139 S. Ct. 2149 (2019); Nieves v. Bartlett,
139 S. Ct. 1715 (2019); Lozman v. City of Riviera Beach, 138 S. Ct.
1945 (2018); Manuel v. City of Joliet, 137 S. Ct. 911 (2017).

As

in those cases, we believe that participation by the United States
in the oral argument in this case could be of material assistance
to the Court.
Respectfully submitted.
BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
AUGUST 2021

